No. 20-1786

 

 

 

In THE
Supreme Court of the United States

JOANNE TROESCH AND IFEOMA NKEMDI,

Petitioners,
v.

CHICAGO TEACHERS UNION, LOCAL UNION No. 1,
AMERICAN FEDERATION OF TEACHERS, AND THE BOARD
OF EDUCATION OF THE CITY OF CHICAGO,

Respondents.

On Petition for Writ of Certiorari to the
United States Court of Appeals
for the Seventh Circuit

REPLY BRIEF FOR THE PETITIONERS

CERTIFICATE OF COMPLIANCE
As required by Supreme Court Rule 33.1(h), I certify that the document contains

2,650 words, excluding the parts of the document that are exempted by Supreme Court
Rule 33.1(d).

I declare under penalty of perjury that the foregoing is true and correct.

Executed on October 13, 2021.

 

Colin Casey Hogan
Wilson-Epes Printing Co., Inc.
